No. 18-847

 

 

IN THE
Supreme Court of the Anited States

BNSF RAILWAY COMPANY,

Petitioner,
v.

JUANITA NYE,
Personal Representative of the Estate of Jeffrey Nye,

Respondent.

On Petition for a Writ of Certiorari to the
Supreme Court of Oklahoma

BRIEF OF THE ASSOCIATION OF
AMERICAN RAILROADS AS AMICUS CURIAE
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,722 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 25, 2019.

Me

Christopher R. Dorsey
Wilson-Epes Printing Co., Inc.
